            Office of Audits
      FY 2013 Performance Plan




U.S. Department of State and Broadcasting
           Board of Governors
       Office of Inspector General
Table of Contents

Message From the Assistant Inspector General for Audits ................... 1

Introduction .................................................................................................. 1

Our Mission, Vision, and Core Values ..................................................... 2
Our Statutory Responsibilities ................................................................... 3
Our Organization ......................................................................................... 3
Our Stakeholders ......................................................................................... 5
Our General Means and Strategies ............................................................ 5
Our Strategic Goals, Strategies, and Performance Indicators ............... 6
Our Methodology for Investing Resources ............................................. 9

Our Fiscal Year 2013 Performance Plan.................................................. 14

Audit Directorate
  Contracts and Grants ............................................................................ 14
  Financial Management ......................................................................... 15
  Human Capital and Infrastructure ..................................................... 18
  Information Technology ...................................................................... 19
  Security and Intelligence ...................................................................... 21

Middle East Region Operations Directorate
 Iraq ........................................................................................................... 22
 Afghanistan ............................................................................................. 23
 Pakistan ................................................................................................... 24
 Other Locations ..................................................................................... 24
Message From the Assistant Inspector General for Audits
I am pleased to present the Office of Audits performance plan for fiscal year (FY) 2013.
This strategic performance plan sets forth our pathway to promote positive change,
maximize efficiency and value in our work, and lead by example in creating a model
organization within the Office of Inspector General (OIG) and the Department of State
(Department). It further provides the means and strategies by which we will achieve
these priorities and the standards by which we will measure our success. This is an
evolving document, which will be updated as necessary to ensure that our work
remains relevant, timely, and responsive to global developments and the priorities of
the foreign affairs community. I want to express my gratitude to all the staff who have
assisted in the development of this plan and my profound appreciation to those who
will implement it.

Evelyn R. Klemstine, Assistant Inspector General, June 2012



Introduction

The Office of Audits has a leading role in helping the Department and the Broadcasting
Board of Governors (BBG) improve management; strengthen integrity and
accountability; and ensure the most efficient,
effective, and economical use of resources. Our
activities are global in scope, supporting the highest      “I have often told OIG
priorities of the Department. Our oversight extends         employees that we have
to the Department’s and BBG’s 70,000+ employees             the best jobs in the
and more than 280 missions and other facilities
                                                            Federal Government
worldwide, funded through a combined annual
                                                            because we are paid to
appropriation of more than $17 billion and $2.4
                                                            tell the truth. Our body of
billion in fee-based resources. We also provide
oversight for the United States Section, International      work . . . is the true
Boundary and Water Commission (IBWC). We                    objective measure of our
remain at the forefront of efforts to identify potential    independence and
savings and cost efficiencies for the Department and        effectiveness.” — Harold
BBG, and we strive to provide timely, relevant, and         W. Geisel, Deputy
useful feedback on the progress of their programs           Inspector General, April
and initiatives. Our mandate includes the                   2011
traditional areas of emphasis for the Department
and BBG—including diplomatic and consular affairs,
security, international broadcasting, administrative and financial management, and
information technology—as well as new initiatives and priorities.




                                                                                           1
Our Mission, Vision, and Core Values

The mission of the Office of Audits is to conduct and direct independent audits and
program evaluations to promote effective management, accountability, and positive
change in the Department, BBG, and the foreign affairs community. We provide
leadership to:

      Promote integrity, efficiency, effectiveness, and economy;
      Prevent and detect waste, fraud, abuse, and mismanagement;
      Identify vulnerabilities and recommend constructive solutions;
      Offer expert assistance to improve Department and BBG operations;
      Communicate timely, useful information that facilitates decision-making and
      achieves measurable gains; and
      Keep the Department, BBG, and the Congress fully and currently informed.

Our vision is to be a world-class organization promoting effective management,
accountability, and positive change in the Department of State, the Broadcasting Board
of Governors, and the foreign affairs community. Our core values are:

  Credibility: We are committed to the highest standards of accountability,
independence, integrity, and professionalism.

  Objectivity: As an independent agent for positive change, our reports and other
products are factual, accurate, informative, and reliable.

  Relevance: Our work is directed at Department and BBG priorities, with an
emphasis on global issues; the effectiveness of foreign assistance programs; resource-
intensive programs and operations; and the Department’s coordination with other U.S.
Government agencies.

   Usefulness: Our products assist decision makers in improving programs and
making the most effective spending decisions in an environment of constrained
financial resources.

  Timeliness: Our audits and evaluations are conducted in a timely manner and are
distributed broadly to ensure recommended actions promptly result in savings, cost
recoveries, prevention of losses, and improved efficiencies and security.




                                                                                         2
Our Statutory Responsibilities

The 1978 Inspector General Act, the 1980 Foreign Service Act, and the 1998 Foreign
Affairs Reform and Restructuring Act charge the OIG with oversight responsibility for
the Department of State and the Broadcasting Board of Governors. These
responsibilities include detecting and preventing waste, fraud, and mismanagement
and assessing whether U.S. foreign policy goals are
being achieved, resources are used to maximum
efficiency, and all elements of U.S. overseas
                                                          “We are the
missions are coordinated. We are also responsible
for evaluating compliance with other legislation—         Department’s best
such as the Chief Financial Officers Act, the             friend because we tell it
Federal Managers’ Financial Integrity Act, and the        what it needs to hear,
Federal Information Security Management Act—              which is not always
designed to enhance management performance.               what it wants to hear.
                                                          When we perform
The Office of Audits follows generally accepted           oversight, we call it as
government auditing standards, as outlined in our         we see it. OIG’s
Office of Audits Manual. We incorporate applicable        reports clearly
standards into our planning process and, where            demonstrate that OIG is
appropriate, into the procedures used by others on        an independent and
our behalf. These standards are designed to set the       responsive oversight
tone for the use of professional judgment in
                                                          organization.” — Harold
performing work on a wide variety of assignments.
                                                          W. Geisel, Deputy
It is our policy to review annually the procedures
                                                          Inspector General, April
and practices we follow and to initiate prompt
action when necessary to ensure compliance with           2011
governing standards and improve internal
efficiency and effectiveness.

Our Organization

The Office of Audits consists of two Directorates, an audit operations division, and an
audit compliance and followup division. The Deputy Assistant Inspector General for
Audits is responsible for the Audit Directorate, charged with conducting audits and
program evaluations of the management and financial operations of the Department
and BBG, including their audited financial statements, information security, internal
operations, and external activities funded by the Department through contracts or
financial assistance. The Deputy Assistant Inspector General for the Middle East
Region Operations (MERO) Directorate is responsible for performing engagements
within the Middle East Region covering the Bureaus of Near Eastern Affairs (NEA) and
South and Central Asian Affairs (SCA), in addition to the general operation of our
overseas offices located in Cairo, Egypt; Kabul, Afghanistan; Islamabad, Pakistan; and

                                                                                        3
 Baghdad, Iraq. The MERO Directorate is also responsible for coordinating our
 oversight efforts with the Southwest Asia Planning Group (SWA-JPG) and the
 Afghanistan and Pakistan (AF-PAK) subgroup.

 The Audit Operations Division and the Audit Compliance and Followup Division
 (ACFD) report directly to the Assistant Inspector General for Audits. Audit Operations
 is responsible for our quality control operations; performing workforce planning and
 analysis; developing and managing our budget; recruiting, training, and retaining
 qualified auditors and analysts. ACFD is responsible for coordinating, tracking, and
 reporting compliance with the recommendations we offer to further demonstrate the
 degree to which our oversight efforts have resulted in more effective, efficient, and/or
 economical operations.


                             Office of Audits
                                Assistant Inspector
                                     General


        Audit Compliance &                                        Audit Operations
        Follow-Up Division                                            Division




                                                                        Deputy Assistant
 Deputy Assistant
                                                                       Inspector General/
Inspector General/
                                                                       MERO Directorate
 Audit Directorate



 Contracts & Grants                                                        Washington DC
        (CG)                                                                  Office



     Financial
  Management (FM)                                                            Cairo, Egypt



  Human Capital &
 Infrastructure (HCI)                                                     Kabul, Afghanistan



     Information
   Technology (IT)                                                          Baghdad, Iraq



      Security &
                                                                              Islamabad,
   Intelligence (SI)
                                                                                Pakistan


                                                                                               4
Our Stakeholders

Our products are directed to and used by a wide range of public and private sector
entities to include the Congress; the Secretary of State and other Department officials,
managers, and staff; the Board of BBG and BBG management and staff; the Council of
Inspectors General on Integrity and Efficiency; other U.S. Government agencies; and
members of the general public – especially the U.S. taxpayer. We continually seek input
from our stakeholders in planning our work to accommodate special requests received
outside of the planning process, and we welcome feedback on our products, processes,
and services.

Our General Means and Strategies

The fundamental means for the Office of Audits to achieve its strategic and
performance goals will be the audits and program evaluations we perform and direct.
In addition to fulfilling mandatory requirements and responding to requests, we strive
to react to the priorities and demands of the foreign affairs community and proactively
review new programs and potential problem areas identified in the course of our work.
We direct the work of select Certified Public Accounting firms to augment our
oversight efforts within the Department and BBG. We work closely with our colleagues
in the Offices of Inspections and Investigations to build expert knowledge of the
Department’s operations; share information to deter, detect, and prosecute fraud; and
develop strategies that advance our oversight mission. We will continue to review and,
as appropriate, revise our processes and methodologies to get the most value from our
resources, better serve our customers and other interested parties, and ensure the
achievement of our strategic and performance goals.

In addition, we will continue to pursue authorization for the personnel authorities and
financial incentives needed to recruit the staff and skill sets needed to fulfill our work
assignments throughout the world, as well as promote professional development of our
staff with a variety of educational and career development opportunities to include
both formal training at high quality institutions and on-the-job experiences internally.

Finally, we will focus discretionary audits and evaluations on high priority areas to help
decision makers within the Department, BBG, and the Congress manage scarce financial
resources. In planning our audits and evaluations, we will target high-cost programs,
key management challenges, and vital operations to provide Department and BBG
managers with information that will assist them in making operational decisions. Our
FY 2013 plan recognizes the Department’s High Priority Performance Goals to include
Global Security; Management-Building-Civilian Capacity; Democracy, Good
Governance, and Human Rights; and Overseas Contingency Operations in the front-
line states of Iraq, Afghanistan, and Pakistan.

                                                                                         5
Our Strategic Goals, Strategies, and Performance Indicators


Goal One: Positive Change

Support and assist the Department and BBG in strengthening management and consular
capabilities and program effectiveness.

Strategies

          audits and evaluations address issues of concern to our stakeholders, and
periodically reassess areas of emphasis to reflect changing priorities of the
Administration, Congress, the Department, and BBG.

           n informed risk management approach to identify mission-critical systems
and operations, major management challenges, potential vulnerabilities, and priority
areas for evaluation.

          our audits, evaluations, and compliance followup reviews, assess
Department and BBG progress in correcting identified management control
weaknesses.


and evaluations, and recommend global solutions to strengthen Department and BBG
management and programs.

         integrated, multifunctional teams of auditors, evaluators, information
technology specialists, and security professionals to leverage OIG resources in
addressing high priority work.

Performance Indicators

1-1. Percentage of recommendations resolved within nine months.

Recommendations are the primary outputs of our audits and program evaluations, and
they serve as the vehicle for correcting vulnerabilities and realizing positive change in
the Department and BBG. Resolution of recommendations reflects management’s
willingness to take the actions we recommended to correct identified problems and
improve programs and operations. The percentage of recommendations resolved
within nine months for audits and evaluations indicates to what extent management
has agreed to take timely action to correct identified problems in line with our
recommendations or has identified acceptable alternatives that are expected to result in
improved programs and operations. Our FY 2013 target is 87 percent.


                                                                                        6
1-2. Percentage of Office of Audits reports that focus on Department and BBG
management challenges.

Our audits and program evaluations assess Department and BBG efforts to achieve
results-oriented management, identify major management challenges, and recommend
improvements. The percentage of our work related to agency management challenges
demonstrates the degree to which we are focused on improving the areas of greatest
vulnerability in agency operations. Our FY 2013 target is 97 percent.

Goal Two: Efficiency and Value

Produce timely, quality work and products with relevant, credible, reliable information that is
useful to Department, BBG, and Congressional decision makers, particularly in managing
resources.

Strategies

  Perform risk assessments when planning audits and evaluations to identify
opportunities for cost savings and the avoidance of costs.

  Review and recommend internal control improvements in programs and functions of
the Department and BBG that are vulnerable to misappropriation, loss, or waste of
resources.

                                  , and effectiveness of interagency program support
services, including whether the most cost-effective means are used in providing services
to foreign affairs agencies overseas.

  Maintain internal quality assurance and review programs to ensure reliability and
credibility of Office of Audits products.

  Maintain transparency in conducting and reporting the results of audits and
evaluations.

  Maximize the use of appropriate technologies to start jobs sooner, finish them
quicker, disseminate the results broadly, and facilitate the storage and retrieval of
reports.

Performance Indicator

2-1. Monetary benefits: questioned costs, funds put to better use, cost savings,
recoveries and efficiencies.

                                                                                                  7
Our audits and evaluations result in potential and actual cost savings and efficiencies to
the Department and BBG. Monetary benefits from our work result in more effective
and efficient use of U.S. taxpayer dollars and are a primary mandate of the Office of
Audits. Our FY 2013 target is $16.5 million.

Goal Three: People
Lead by example in providing a model work environment that facilitates timely, quality work
and products.

Strategies

  Focus recruitment efforts on requisite skill sets and individuals who possess the
knowledge, skills, and abilities to masterfully perform audits and evaluations.

  Encourage all employees to complete Individual Development Plans, ensure that all
employees fulfill mandatory training requirements, and support employees in their
pursuit of developmental training.

                                                            ppropriate professional
certifications, such as the designation of Certified Public Accountant, Certified Internal
Auditor, and Certified Information Systems Auditor.


employees in producing quality and timely products.

Performance Indicator

3-1. Annual rate of attrition for Civil Service employees.

Office of Audits products and services are possible only through its people. Our
success is predicated on attracting and retaining highly qualified employees with
functional and/or subject-matter expertise in auditing, program evaluation, foreign
policy, information technology, security, and public diplomacy. Employee retention is
measured in terms of annual attrition of Civil Service employees. Since the end of FY
2010, the Office of Audits has successfully recruited and hired 24 employees to fill
vacant positions. Our goal in FY 2013 is to fill all of our authorized positions, which
will further enable us to complete global assessments of high-cost, strategically
significant Department and BBG programs and management challenges; emerging
initiatives and priorities; and areas of Congressional interest.



                                                                                              8
Our Methodology for Investing Resources

The methodology we use to guide the investment of our resources is predicated on the
performance goals and strategies noted above and four additional factors: (1)
Congressional and executive mandated audits, (2) the Department’s High Priority
Performance Goals, program risk, and Government Accountability Office (GAO) High
Risk Issues for FY 2013, (3) the Department’s allocation of resources by strategic goal,
and (4) holistic audit attention to all bureaus and offices charged with advancing the
Department’s and BBG’s mission.

Mandated Assignments

The Office of Audits currently has 13 Congressional and executive mandated
assignments. These assignments are generally conducted annually, and many relate to
financial management and information technology security requirements stemming
from the Chief Financial Officers Act and the Federal Information Security Management
Act (FISMA). A listing of mandatory assignments and the division responsible for
conducting them follows:

   1. Financial Statement Audit of the Department of State [Financial Management Division]
   2. Financial Statement Audit of the Broadcasting Board of Governors [Financial
       Management Division]
   3. Financial Statement Audit of the International Boundary and Water Commission
       [Financial Management Division]
   4. Audit of the Broadcasting Board of Governors Compliance With the Improper Payments
       Information Act [Financial Management Division]
   5. Audit of the Department of State Compliance With the Improper Payments Information
       Act [Financial Management Division]
   6. FISMA Audit of the Department of State Information Security Program [Information
       Technology Division]
   7. FISMA Audit of the Broadcasting Board of Governors Information Security Program
       [Information Technology Division]
   8. FISMA Audit of the Intelligence Community’s Information Security Program
       [Information Technology Division]
   9. FISMA Audit of the International Boundary and Water Commission Information
       Security Program [Information Technology Division]
   10. Annual Attestation of the Department of State Bureau of International Narcotics and
       Law Enforcement Affairs Drug Control Funds and Related Performance Report
       [Financial Management Division]
   11. OMB Circular A-133 – Quality Control Review of Single Audits [Contracts and Grants
       Division]


                                                                                           9
    12. OMB Circular A-133 – Single Audit Act Initial (Desk) Reviews [Contracts and Grants
        Division]
    13. Audit of the National Endowment for Democracy [Contracts and Grants Division]

Priorities of the Department of State and BBG

We organized the Department’s top priorities to align with the themes of the
Quadrennial Diplomacy and Development Review (QDDR). The QDDR is intended to
offer guidance on how the Department can work better and smarter by setting clear
foreign affairs priorities, managing for results, promoting accountability, and unifying
efforts to ensure the effective execution of solutions. Figure 1 depicts the four QDDR
themes and our associated placement of High Performance Goals within each: the
Department’s High Priority Performance Goals1 and GAO High Risk Issues. Our
investment of resources also recognizes Strategic Communications and Technology
employed by BBG.



      “The first Quadrennial Diplomacy and Development Review (QDDR) provides a blueprint for
      elevating American civilian power to advance our national interests and improve the
      efficiency, effectiveness, and overall accountability of the Department of State and the United
      States Agency for International Development (USAID).

      Since the release of the QDDR, we have taken a number of steps to implement its
      recommendations. We have incorporated the advice and guidance we received from our
      Ambassadors as a result of the first Global Chiefs of Mission Conference, including how
      further to support their role as CEOs of a multi-agency mission and implement the overall
      package of reforms. We are already implementing a number of specific recommendations,
      including reforms through USAID Forward, changes to IT platforms, reforms to our
      contracting and procurement policies, and enhanced planning and budgeting processes.
      Significantly, we also are seeking, in this challenging budget environment, to ensure the
      priorities and objectives of the QDDR are reflected in the FY 2012 budget negotiations and
      clearly set forth in the guidance for FY 2013 budget planning.”


                                                       Hillary Rodham Clinton
                                                       Secretary of State
                                                       April 2011




1
 Source: Department of State, FY 2013 Congressional Budget Justification, Vol. 1: Department of State
Operations.


                                                                                                        10
Figure 1

     QDDR Themes: Leading                                                                  Lead
      Through Civilian Power               High Priority Performance Goals/              Bureaus/
                                                GAO High Risk Issues                      Offices
1.   Diplomacy for the 21st Century       Global Health                                S/GAC, OES,
                                          Addressing HIV/AIDS Challenges               S/GWI
Leading the implementation of global
civilian operations,                      Global Security-Nuclear Nonproliferation     ISN, PM,
Adapting U.S. diplomacy to meet                                                         AVC, INL,
new challenges,                                                                         S/CT
Engaging beyond the State, and
Supporting our diplomats as they          Climate Change                               S/SECC,
take on new missions.                                                                   OES, EEB

                                          Afghanistan and Pakistan                     S/SRAP,
                                          Iraq                                         DRL, INL,
                                                                                        NEA, OBO
                                          Economic Statecraft
                                                                                        EB

                                          Strategic Communications and Technology
                                                                                        BBG
                                          Fostering Public Diplomacy & International
                                           Broadcasting

2.   Transforming Development to          Democracy, Good Governance, and Human        DRL, S/GWI,
     Deliver Results                       Rights                                       J/TIP, EEB,
                                                                                        INL, OES, F
Focusing our investments,                 Sustaining Counternarcotics Activities
Practice High-Impact Development,         Enhancing Democracy & Human Rights
Rebuilding United States Agency for       Reforming United Nations Management
International Development as the          Implementing Millennium Challenge
preeminent global development              Compacts
institution, and
Transforming the Department’s
support for development.

3.   Preventing and Responding to          Food Security                               S/P, RM,
     Crises and Conflicts                                                               EEB, OES
                                          Maximizing Humanitarian Assistance
Embracing and executing conflict          Stabilizing Regional Conflicts
prevention and response as a core
civilian mission and
Building capability to reform
security and justice sectors

4.   Working Smarter                       Management-Building Civilian Capacity       HR/RMA,
                                                                                        S/CRS, INL,
Building a 21st Century Workforce,        Strengthening Visa & Passport Operations     RM, S/CT
Managing contracting and                  Addressing Staffing Challenges
procurement better to achieve our
missions, and
Planning and budgeting for results.



                                                                                                      11
Allocation of Department Resources by Strategic Goal

Figure 2 depicts the Department and United States Agency for International
Development (USAID) Joint Strategic Goals with the percentage and amount of
financial resources requested by the Department in FY 2013 to support each goal.2
Thirty seven percent of the FY 2013 budget request supports Strategic Goal 1. Strategic
Goal 1 combined with Strategic Goal 7 account for 66 percent of the Department’s FY
2013 operations request.3


Figure 2

                                                                    Percentage     Amount
    Department of State-USAID Joint Strategic Goals                  of Total     Requested
                                                                    Requested ($ in thousands)
Strategic Goal 1: Counter threats to the United States and the           37%                 $6,446,121
international order, and advance civilian security around the
world.


Strategic Goal 2: Effectively manage transitions in the front-           10%                 $1,707,094
line states.

Strategic Goal 3: Expand and sustain the ranks of prosperous,            10%                 $1,683,679
stable, and democratic states by promoting effective,
accountable, democratic governance; respect for human rights;
and sustainable, broad-based economic growth and well-
being.

Strategic Goal 4: Provide humanitarian assistance and support             3%                   $581,394
disaster mitigation.

Strategic Goal 5: Support American prosperity through                     2%                   $400,953
economic diplomacy.

Strategic Goal 6: Advance U.S. interests and universal values             9%                 $1,670,562
through public diplomacy and programs that connect the
United States and Americans to the world.

Strategic Goal 7: Build a 21st Century workforce; achieve U.S.           29%                 $5,383,145
Government operational and consular efficiency and
effectiveness, transparency and accountability, and a secure
U.S. Government presence internationally.

                                                                         100%               $17,872,948

2
  Source: Department of State, FY 2013 Congressional Budget Justification, Vol. 1: Department of State
Operations.
3
  Resources allocated by strategic goal include all appropriated funds, except Office of Inspector General,
International Commissions, Buying Power Maintenance, Foreign Service National Separation Liability
Trust Fund Payment, and Foreign Service Retirement and Disability Fund.

                                                                                                        12
Holistic Audit Attention

In FY 2013, we are initiating oversight activities in a number of bureaus that are integral
to advancing the Department’s High Priority Performance Goals to include the Bureaus
of Administration (A); Information Resource Management (IRM); Counterterrorism
(CT); International Security and Nonproliferation (ISN); Democracy, Human Rights and
Labor (DRL); and Conflict and Stabilization Operations (CSO). This focus reflects our
desire to add value to the Department’s mission while meeting the demands of the
Congress and foreign affairs community to proactively review new programs and deter
waste, fraud, and mismanagement. Figure 3 depicts the Department of State’s
transition from the Old to the New Strategic Goal Framework. Our holistic oversight
approach corresponds with this revised framework, as well as the Department’s
continuing mission in the front-line states of Iraq, Afghanistan, and Pakistan.

Figure 3




Source: U.S. Department of State Fiscal Year 2011 Agency Financial Report.


                                                                                        13
Our Fiscal Year 2013 Performance Plan

Audit Directorate

Contracts and Grants
 Bureau/OIG                                         Primary                                      Initiate
                   Engagement Title                                           Justification
  Division                                          Objective                                   Month/Year

               OMB Circular A-133 –         Pursuant to the requirements
Domestic and   Quality Control Review of    of OMB Circular A-133, to
Overseas       Single Audits OMB            provide selected Single Audit
                                                                               Mandatory           June
Bureaus, BBG   Circular A-133 – Single      Act Desk Reviews that can
                                                                                                   2012
/CG            Audit Act Initial (Desk)     identify questioned costs for
               Reviews                      repayment to the Department
                                            and BBG.


                                            To determine whether the
               Audit of Premium Travel
Department,                                 BBG is in compliance with
               at the Broadcasting Board                                                          August
BBG                                         Federal regulations and travel   Program Risk
               of Governors (BBG)                                                                  2012
/CG                                         guidance for premium travel.



                                            To determine whether
                                            construction contracts for         High Priority
                                            selected major Department        Performance Goal
Overseas       Audit of Construction
                                            construction projects are
Bureaus,       Contracts for Selected                                                           September
                                            complying with Federal
OBO, A         Department of State                                             Management         2012
                                            regulations and Department
/CG            Projects (Carryover)
                                            guidance.




                                            To determine whether
               Audit of Selected Overseas   selected international and         High Priority
NEA, SCA,
               Refugee Assistance           grantee organizations for the    Performance Goal    October
AF, PRM
               Programs (Carryover)         Overseas Refugee Assistance                           2012
/CG
                                            Program are complying with         Management
                                            grant terms and conditions.



                                            To determine to what extent        High Priority
               Audit of Department of       the Department’s Contracting     Performance Goal
A,RM, PM
               State Placement and          Officer’s Representatives                             March
AQM
               Training of Contracting      have been positioned and                              2013
/CG                                                                            Management
               Officer’s Representatives    trained to support the
                                            Department’s global mission.




                                                                                                    14
 Bureau/OIG                                           Primary                                        Initiate
                   Engagement Title                                             Justification
  Division                                            Objective                                     Month/Year

                                             To determine to what extent
                                             the Department’s approach of
               Audit of Department of        turning to the expertise of         High Priority
A,RM, AQM
               State Progress to Reduce      other Federal agencies before     Performance Goal        April
/CG            Reliance on Contractors       engaging private sector                                   2013
                                             contractors has been                Management
                                             effective.



                                             To determine to what extent
                                             and manner incentive fees           High Priority
                                             have been applied to              Performance Goal
               Audit of Department of                                                                  June
 A                                           Department contract awards
               State Contract Incentive                                                                2013
/CG                                          and whether they have been
               Fees                                                              Management
                                             properly linked to acquisition
                                             and performance outcomes
                                             per Department guidance.


Financial Management
Bureau/OIG                                          Primary                                        Initiate
                 Engagement Title                                              Justification
 Division                                           Objective                                     Month/Year

                                          To determine whether the
              Audit of Department of      financial statements and related
Department    State FY 2012               notes are presented fairly, in all                          January
                                                                                  Mandatory
/FM           Financial Statements        material respects, in conformity                             2012
              (Carryover)                 with the accounting principles
                                          generally accepted in the United
                                          States.

                                          To determine whether the financial
              Audit of BBG FY 2012        statements and related notes are
BBG                                                                                                    June
              Financial Statements        presented fairly, in all material       Mandatory
/FM                                                                                                    2012
              (Carryover)                 respects, in conformity with the
                                          accounting principles generally
                                          accepted in the United States.



                                          To determine whether the financial
              Audit of International
                                          statements and related notes are
              Boundary and Water
IBWC                                      presented fairly, in all material                            June
              Commission’s (IBWC)                                                  Mandatory
/FM                                       respects, in conformity with the                             2012
              FY 2012 Financial
                                          accounting principles generally
              Statements (Carryover)
                                          accepted in the United States.




                                                                                                         15
Bureau/OIG                                         Primary                                       Initiate
                 Engagement Title                                              Justification
 Division                                          Objective                                    Month/Year

                                        To determine whether the
                                        surcharge related to
             Audit of the Bureau of                                            High Priority
                                        acquisitions has improved the
A            Administration Use of                                           Performance Goal        June
                                        efficiency and effectiveness
/FM          the Procurement                                                                         2012
                                        of acquisition management
             Surcharge (Carryover)                                             Management
                                        and improved customer
                                        service.


             Department of State         To determine whether the
Department   Compliance with the         Department is in compliance                              December
                                                                               Mandatory
/FM          Improper Payments           with the Improper Payments                                 2012
             Improvement Act             Improvement Act, as
                                         amended.


                                         To determine whether BBG is
             BBG Compliance with         in compliance with the
BBG                                                                                               December
             the Improper Payments       Improper Payments                     Mandatory
/FM                                                                                                 2012
             Improvement Act             Improvement Act, as
                                         amended.



             Review of DOS FY
             2012 Accounting and        To authenticate the                    Mandatory          December
             Authentication of Drug     Department’s FY 2012                                        2012
INL, RM                                 accounting of drug control
             Control Funds and
/FM                                     funds and related performance
             Related Performance
                                        in compliance with ONDCP
             Report for the Office of   guidance.
             National Drug Control
             Policy (ONDCP)

                                        To determine whether the
                                        financial statements and related
             Audit of Department
Department                              notes are presented fairly, in all                         January
             of State FY 2013                                                  Mandatory
/FM                                     material respects, in conformity                            2013
             Financial Statements
                                        with the accounting principles
                                        generally accepted in the
                                        United States.




                                                                                                       16
Bureau/OIG                                        Primary                                     Initiate
                 Engagement Title                                            Justification
 Division                                         Objective                                  Month/Year

                                      To determine whether the
                                      financial statements and
             Audit of BBG FY          related notes are presented
BBG                                                                                             January
             2013 Financial           fairly, in all material respects,      Mandatory
/FM                                                                                              2013
             Statements               in conformity with the
                                      accounting principles
                                      generally accepted in the
                                      United States.


                                      To determine whether the
             Audit of Department      Department has made payments          High Priority
RM           of State Management      to vendors on the “Do Not Pay”      Performance Goal      January
/FM          of Vendors in the        list and to determine to what                              2013
             Accounting System        extent vendors in the accounting       Management
                                      system are valid and needed.



                                      To determine whether the
                                      financial statements and
             Audit of International
                                      related notes are presented
             Boundary and Water
IBWC                                  fairly, in all material respects,                          May
             Commission’s                                                    Mandatory
/FM                                   in conformity with the                                     2013
             (IBWC) FY 2013
                                      accounting principles
             Financial Statements
                                      generally accepted in the
                                      United States.


                                      To determine whether the
             Audit of Department      Department has an effective
             of State Process to      process to develop and
L                                                                                                June
             Develop a                oversee a consolidated list of       Program Risk
/FM                                                                                              2013
             Consolidated List of     open litigation that could
             Open Litigation          impact the Department’s
                                      financial statements.


                                      To determine whether
                                      obligations made against
                                                                            High Priority
                                      expired funds are made in
RM           Audit of Expired and                                         Performance Goal       July
                                      accordance with budget
/FM          Cancelled Funds                                                                     2013
                                      authority and to determine the
                                                                            Management
                                      reasons that bureaus are not
                                      using funds within the
                                      deadlines of the appropriation.



                                                                                                    17
Human Capital and Infrastructure
Bureau/OIG                                       Primary                                         Initiate
                 Engagement Title                                            Justification
  Division                                       Objective                                      Month/Year

                                            To determine to what
                                            extent the Department’s
                                                                              High Priority
                                            personnel disciplinary
             Audit of Department of State                                   Performance Goal
HR                                          actions are appropriate in                              July
             Personnel Disciplinary
/HCI                                        nature, consistently                                    2012
             Actions                                                        Building Civilian
                                            applied within the
                                                                                Capacity
                                            Department, and comply
                                            with Federal guidelines.


                                            To determine to what extent
                                            the Department’s
             Audit of the Department of     contributions to the Merida      GAO High Risk
INL          State Contributions and        Initiative have been
             Performance Results for the    administered in accordance                             October
/HCI                                                                           Sustaining
             Merida Initiative              with applicable Federal laws                            2012
                                                                             Counternarcotics
                                            and Department guidance             Activities
                                            and whether stated
                                            performance goals have been
                                            achieved.


                                            To determine to what extent
                                            the Department’s medical
             Audit of Foreign Service       health units are effectively
             Medical Officers’ Internal     administering internal             High Priority
MED          Controls of Medical            controls over the ordering,      Performance Goal      February
/HCI         Supplies, Controlled           receipt, storage, and                                    2013
             Substances, and Prescription   disposition of medical             Management
             Drugs at Select Posts          supplies, controlled
                                            substances, and prescription
                                            drugs.


                                            To determine to what extent
                                            the Expedited Logistics
                                                                               High Priority
                                            Program has been effective
A            Audit of Department of State                                    Performance Goal       May
                                            in providing posts with easy,
/HCI         Expedited Logistics Program                                                            2013
                                            fast, and cost effective
                                                                               Management
                                            methods to obtain commonly
                                            used items.


                                            To determine to what extent
                                            contracts for the design and       High Priority
             Audit of the Design and
OBO, A,                                     construction of New
             Construction of New                                             Performance Goal     September
AQM                                         Embassy Compound (NEC)
             Embassy Compound London                                                                2013
/HCI                                        London followed Federal
                                            construction regulations and       Management
                                            Department guidance.



                                                                                                      18
Information Technology
Bureau/OIG                                              Primary                                    Initiate
                 Engagement Title                                                 Justification
 Division                                               Objective                                 Month/Year

                                            To determine whether the
                                            Department has securely
             Audit of Department of         implemented active directory
             State Security Controls over
IRM                                         services to prevent outside cyber                       August
             the Active Directory                                                 Program Risk
/IT                                         attacks and to what extent the                           2012
             Enterprise Environments
             (Carryover)                    Department has implemented
                                            effective security controls across
                                            the enterprise.


                                            To determine whether the
                                            Department has instituted
             Audit of Department of
                                            security controls that are
IRM          State Data Center Security                                                           September
                                            appropriate to its data centers       Program Risk
/IT          and Consolidation                                                                      2012
                                            and what progress has been
             (Carryover)
                                            made with the data center
                                            consolidation mandate.


                                            To determine to what extent (1) the
                                            Department’s System Development
                                            Life Cycle (SDLC) policies and
                                            procedures adequately address
             Audit of Department of         Federal requirements and
IRM          State System Development       information technology best                             January
                                                                                  Program Risk
/IT          Life Cycle (SDLC) Process                                                               2013
             (Carryover)                    practices governing the SDLC
                                            process; and (2) Information
                                            security and management controls
                                            are addressed at each stage of the
                                            SDLC.


                                            To evaluate the effectiveness of
                                            security controls and techniques
             Audit of the Information       for selected information systems
IRM, DS      Security Program at the        and compliance with Federal            Mandatory        March
/IT          Department of State            Information Security                                    2013
                                            Management Act (FISMA) and
                                            related information security
                                            policies, procedures, standards,
                                            and guidelines.




                                                                                                      19
Bureau/OIG                                              Primary                                   Initiate
                   Engagement Title                                              Justification
 Division                                               Objective                                Month/Year

                                          To evaluate the effectiveness of
               Audit of the               security controls and techniques for
               Information Security       selected information systems and
IBWC           Program at the             compliance with Federal                                  March
                                                                                  Mandatory
/IT            International              Information Security Management                          2013
               Boundary and Water         Act (FISMA) and related
               Commission (IBWC)          information security policies,
                                          procedures, standards, and
                                          guidelines.

                                          To evaluate the effectiveness of
                                          security controls and techniques
               Audit of the Information   for selected information systems
               Security Program at the    and compliance with Federal
BBG                                                                                                 April
               Broadcasting Board of      Information Security Management         Mandatory
/IT                                                                                                 2013
               Governors (BBG)            Act (FISMA) and related
                                          information security policies,
                                          procedures, standards, and
                                          guidelines.

                                          To determine whether the
                                          Department has securely
                                          implemented wireless networks to
RM, DS, IRM,
                                          prevent outside cyber attacks and                         May
CA, A, HR      Audit of Department of                                            Program Risk
                                          to what extent the Department has                         2013
/IT
               State Wireless Networks    implemented effective security
                                          controls through the enterprise.


                                          To evaluate the effectiveness of
               Audit of the Information   security controls and techniques
               Security Program for       for SCI systems and compliance
               Sensitive Compartmented    with Department policies and with
DS,INR                                                                                              July
               Information (SCI)          Federal Information Security            Mandatory
/IT                                                                                                 2013
               Systems at the             Management Act (FISMA) and
               Department of State        related information security
                                          policies, procedures, standards, and
                                          guidelines.



               Audit of Department of     To determine to what extent the
                                          Department has developed and
RM, DS, IRM,   State Contingency Plans
                                          tested contingency plans for                             August
CA, A, HR      for Enterprise Systems                                            Program Risk
                                          enterprise systems and                                    2013
/IT            and Applications
                                          applications.




                                                                                                     20
Security and Intelligence
Bureau/OIG                                           Primary                                            Initiate
                 Engagement Title                                                   Justification
 Division                                            Objective                                         Month/Year

                                             To determine whether select New
                                             Embassy and Consulate
                                             Compounds with high-threat
                                             levels are in compliance with
             Audit of Department of State
             Compliance With Physical        physical security standards, and
DS, OBO,                                     whether officials at these posts
             Security Standards and                                                                       April
RM                                                                                   Program Risk
             Measures Taken To Address       have efficiently aligned resource                            2012
/SI
             Threat Levels at Selected       plans with mission requirements
             Overseas Posts (Carryover)      and have used available
                                             authorities to effectively
                                             implement the post security
                                             program.


                                             To determine whether the
               Audit of Department of        Department has implemented               High Priority
T, ISN,        State Administration of       internal controls to effectively       Performance Goal    September
CT             Nonproliferation and
                                             monitor and measure                                          2012
/SI            Threat Reduction Programs
                                             Nonproliferation and Threat             Global Security
               (Carryover)
                                             Reduction assistance.


               Audit of Bureau of
                                             To determine the Department’s
               Diplomatic Security
                                             progress in implementing
DS, IRM        Implementation of                                                                        December
                                             interoperable communications            Program Risk
/SI            Interoperable                                                                              2013
                                             among strategic partners at
               Communications at
                                             overseas posts.
               Overseas Posts (Carryover)



                                             To determine to what extent the
               Audit of Department of                                                 High Priority
T, PM,                                       Department has advanced its goals                            May
               State Actions To Address                                             Performance Goal
EEB                                          and objectives in combating                                  2013
               the Challenges of Maritime
/SI                                          maritime pirate attacks emanating
               Piracy (Carryover)                                                    Global Security
                                             from Africa.



                                             To determine to what extent the
                                             Department has progressed in           GAO High Risk
               Audit of the Department of
DRL, INL,                                    integrating security and justice
               State Integration of                                                                      August
CSO, GCJ                                     sector assistance and has                 Stabilizing
               Security and Justice Sector                                                                2013
/SI                                          effectively linked the assistance to       Regional
               Assistance                                                               Conflicts
                                             development by emphasizing host
                                             nation’s ownership of programs.



                                                                                                           21
Middle East Region Operations Directorate

Iraq
 Bureau/OIG                                       Primary                                          Initiate
                 Engagement Title                                               Justification
  Division                                        Objective                                       Month/Year

                                               To determine whether the
Embassy         Audit of Department of State   Department's management
Baghdad, NEA,   Management of Medical          of medical operations             High Priority
                                                                                                   October
MED, AQM        Operations Supporting          dedicated to supporting         Performance Goal
                                                                                                    2012
/MERO           Personnel Assigned to Iraq     personnel assigned to Iraq
                (Carryover)                    has been effective and                Iraq
                                               properly resourced.


                                               To determine whether the
Embassy         Audit of the Worldwide         Department's administration       High Priority
Baghdad, DS,    Protective Services (WPS)      and oversight of the WPS        Performance Goal     April
AQM             Task Order for Kirkuk/Mosul    task order for Kirkuk/Mosul                          2013
/MERO           Task Order (Carryover)         has been effective.                   Iraq



                                               To determine whether the
Embassy                                        Department’s administration
                                                                                 High Priority
Baghdad, NEA,   Audit of Civilian Assistance   and oversight of civilian
                                                                               Performance Goal    March
INL, AQM        Programs in Iraq               assistance programs are
                                                                                                   2013
/MERO                                          effective and whether the
                                                                                     Iraq
                                               programs are achieving
                                               stated program objectives.


                                               To determine whether the
Embassy                                        Air Wing Program in Iraq is
Baghdad, NEA,   Audit of the Bureau of         achieving its stated
                                                                                 High Priority
INL, AQM        International Narcotics and    objectives, contractor
                                                                               Performance Goal    August
/MERO           Law Enforcement Affairs Air    performance is adequately
                                                                                                    2013
                Wing Program in Iraq           monitored, and that costs
                                                                                     Iraq
                                               charged by the contractor are
                                               consistent with the contract
                                               terms and conditions.


                                               To determine whether the
Embassy         Audit of the Award and         Department was following
Baghdad, NEA,   Management of Local and        prescribed procedures when        High Priority
AQM             Regional Contracts in Iraq     awarding and managing           Performance Goal   September
MERO                                           local and regional contracts                         2013
                                               in Iraq, to include contract          Iraq
                                               closeout procedures.




                                                                                                      22
Afghanistan
 Bureau/OIG                                     Primary                                          Initiate
                Engagement Title                                              Justification
  Division                                      Objective                                       Month/Year

                                             To determine whether the
Embassy        Audit of the Worldwide        Department's administration       High Priority
Kabul, DS,     Protective Services (WPS)     and oversight of the WPS        Performance Goal    December
AQM, SCA       Task Order for the Kabul      task order for KESF has                               2012
/MERO          Embassy Security Force        been effective.                   Afghanistan
               (KESF) (Carryover)

                                             To determine whether the
Embassy        Audit of Administration and   Bureau of International
Kabul, INL,    Oversight of Contracts to     Narcotics and Law                 High Priority
OBO, SCA       Construct Prisons within      Enforcement Affairs has         Performance Goal     January
/MERO          Afghanistan (Carryover)       effectively administered and                          2013
                                             overseen funds expended for       Afghanistan
                                             prison construction within
                                             Afghanistan.


AQM, NEA,                                    To determine whether the
INL, Embassy   Audit of the Award and        Department is following
               Management of Local and       prescribed procedures when        High Priority
Kabul
               Regional Contracts in         awarding and managing           Performance Goal      May
/MERO          Afghanistan                   local and regional contracts                          2013
                                             in Afghanistan, to include        Afghanistan
                                             contract closeout procedures.



                                             To determine whether the
                                                                               High Priority
Embassy        Audit of Embassy              Department is effectively
                                                                             Performance Goal      June
Kabul, OBO,    Construction in Kabul         administering the Embassy
                                                                                                   2013
AQM, SCA                                     construction contracts in
                                                                               Afghanistan
/MERO                                        Kabul.


                                             To determine whether the
Embassy        Audit of INL’s                Bureau of International
                                                                               High Priority
               Counternarcotics Programs     Narcotics and Law
Kabul, SCA                                                                   Performance Goal
               in Afghanistan                Enforcement Affairs is
/MERO                                                                                           September
                                             achieving intended and
                                                                                                  2013
                                             sustainable results through
                                                                               Afghanistan
                                             its Counternarcotics
                                             Programs in Afghanistan.




                                                                                                     23
Pakistan
 Bureau/OIG                                         Primary                                          Initiate
                  Engagement Title                                                Justification
  Division                                          Objective                                       Month/Year

                 Audit of the Administration     To determine whether the
PM, Embassy      and Oversight of the Pakistan   Department’s administration       High Priority
Islamabad,       Counterinsurgency               and oversight of the Pakistan   Performance Goal    October
SCA              Capability Fund                 Counterinsurgency                                    2012
/MERO                                            Capability Fund have been           Pakistan
                                                 effective..


Embassy                                          To determine whether the
Islamabad,       Audit of INL’s Judicial         INL’s administration and          High Priority
SCA, INL         Reform Programs in Pakistan     oversight of its judicial       Performance Goal    March
/MERO                                            reform programs in Pakistan                         2013
                                                 are effective and whether the       Pakistan
                                                 programs are achieving
                                                 stated program objectives.




Other Locations
 Bureau/OIG                                         Primary                                          Initiate
                  Engagement Title                                                Justification
  Division                                          Objective                                       Month/Year

Consulate                                        To determine whether the
General          Audit of the Worldwide          Department's administration
Jerusalem, DS,   Protective Services (WPS)       and oversight of the WPS                             March
                                                                                   Program Risk
and AQM          Jerusalem Task Order            task order for Jerusalem has                         2013
/MERO            (Carryover)                     been effective.



                                                 To determine whether the
Embassy          Audit of Department of State    Bureau of International
                                                                                   High Priority
Jordan, INL      Administration and              Narcotics and Law
                                                                                 Performance Goal
/MERO            Oversight of the Jordanian      Enforcement Affairs’
                 Police Modernization            administration and oversight                          June
                                                                                 Democracy, Good
                 Program (Carryover)             of the Jordanian Police                               2013
                                                                                  Governance and
                                                 Modernization Program have
                                                                                  Human Rights
                                                 been effective and whether
                                                 the program has achieved its
                                                 stated performance goals.


                                                 To assess the efforts to
NEA, SCA,                                        protect Department of State
DS, Selected     Audit of Movement Security      personnel during                                   September
Embassies        in the MERO Region              movements outside selected        Program Risk
                                                                                                      2013
/MERO                                            Embassy Compounds.




                                                                                                        24
Bureau/OIG                                   Primary                                          Initiate
             Engagement Title                                               Justification
 Division                                    Objective                                       Month/Year

                                        To determine whether the
NEA, MEPI
             Audit of the Middle East   Department’s administration         High Priority
             Partnership Initiative     and oversight of the Middle       Performance Goal
/MERO                                                                                         September
                                        East Partnership Initiative
                                                                                                2013
                                        have been effective and           Democracy, Good
                                        whether the Program has            Governance and
                                        achieved its stated objectives.     Human Rights




                                                                                                 25
